WAIVER

Supreme Court, U.S.
FILED

Supreme Court of the United State NOV 0 6 2019
OFFICE OF THE CLERK

No. 19-459
v.

Texas Brine Company, LLC
(Petitioner)

Florida Gas Transmission Company,
LLC, et al.
(Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.
Please check the appropriate boxes:
0

Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

kfolt kiwi/IA-0u
0

Fuvul

I am a member of the Bar of the Supreme Court of the United States.

RA I am not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.
Signature

Oche law ?I t Alq
(Type or print) Name
Mvias
Voltit
Mr.
g Ms. V
Date:

Firm

Pladips

El Mrs.

0 Miss

Pimilollw [A/P

cAkut i
City & State NitW

no°

Address .?;.(f/ g

)

Zip

1()

Phone ( So+) VII—SS r!p
SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Cc: ik~ 60 -4'U/1 c/1/1.J2/1/ &gvs

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

P

HELPS DUNBAE

Louisiana I Mississippi I Texas I Florida I Alabama I North Carolina I London

KATIE W. MYERS
Counsel
(504) 679-5536

November 5, 2019

katie.myers@phelps.com

19963-2548

VIA UPS OVERNIGHT DELIVERY
TRACKING NO. 1Z7037E001955.14491
Attn: Clerk's Office
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 2Q543
Re:

Texas Brine Company, LW v. Florida Gas Transmission Company, et al
Supreme Court of the United States Docket NO. 19-459

Dear Sir/Madam:
Enclosed please find an original and one copy of a Waiver and Service List being filed on
behalf of Scottsdale Insurance Company, which I ask that you file into the record of the abovecaptioned matter and kindly return a conformed copy back to me in the self-addressed, stamped
envelope provided for convenience.
Please let me know if the Court requests a response to the petition for a writ of certiorari
and we will file one within the deadlines set by the Court.
Thank for your assistance.
Sincerely,

Aro
Katie W. Myers
355 Mks
Enclosures
see attached service list
cc:

COUNSELORS AT LAW
Canal Place I 365 Canal Street, Suite 2000 I New Orleans, Louisiana 70130-6534 I 504-566-1311 I 504-568-9130 Fax I phelpsdunbar.com
PD.27352978.1

